CERTIFICATE OF SERVICE
No. TBD
Bruce A. Norvell
Petitioner,
v.
Secretary of the Treasury; United States Internal Revenue Service
Respondents.
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Bruce
A. Norvell Petition for Writ of Certiorari, by mailing one 1 true and correct copy of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Ave, NW., Suite 5614
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj .gov
Counsel for United States ofAmerica

Lucas DeDeus

December 11, 2020
SCP Tracking: Norvell-P.O. Box 4037-Cover White

